SIGAR                                         Special Inspector General for
                                               Afghanistan Reconstruction




 Improvised Explosive Devices: Unclear Whether
 Culvert Denial Systems to Protect Troops Are
 Functioning or Were Ever Installed




  This product was completed under SIGAR’s Office of Special Projects, the Special
 Inspector General’s response team created to examine emerging issues in prompt,
  actionable reports to federal agencies and the Congress. The work was conducted
pursuant to the Special Inspector General’s authorities and responsibilities under the
           National Defense Authorization Act for FY 2008 (P.L. 110-181).




                                                                   JULY 2013
                                                                             SIGAR SP-13-8
July 23, 2013

General Lloyd J. Austin III
Commander, U.S. Central Command
General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan, and
 Commander, International Security Assistance Force

Improvised explosive devices (IEDs) are the weapon of choice for threat networks, and there has been an
increasing trend in the use of IEDs in Afghanistan. IED events in Afghanistan increased by 42 percent (9,300 to
16,000) from 2009 to 2011, according to Department of Defense (DOD) testimony before the House
Appropriations Subcommittee on Defense. 1 According to DOD officials, the number of IED events reportedly
increased in 2012 to a total of over 17,000 incidents for the year. Culvert denial systems are designed to
prevent access to roadway culverts by insurgents, who can use the culverts to emplace IEDs or other
explosives. DOD has funded a number of contracts for the placement of culvert denial systems across
Afghanistan.
In October 2012, SIGAR issued a safety alert letter informing DOD of the results of our preliminary
investigation, which found that Afghan contractors either had failed to properly install culvert denial systems,
rendering those systems ineffective and susceptible to compromise by insurgents, or did not install them at all.
Our preliminary investigation found that at least two Afghan contractors—with a total contract amount of nearly
$1 million—in one Afghanistan province have committed fraud by billing the U.S. government for the
installation of 250 culvert denial systems that were either never installed or incorrectly installed. The ongoing
investigation is looking into whether this apparent failure to perform may have been a factor in the death or
injury of several U.S. soldiers. To date, an Afghan contractor and his sub-contractor have both been arrested
and charged with fraud and negligent homicide. Our investigators are working with the Afghan Attorney
General’s Office to arrest the second contractor.
We initiated this review in response to the concerns identified in our safety alert letter. We sought to identify
the universe of contracts awarded for culvert denial system installation, and the extent to which contract
management and oversight were conducted. This report provides our findings on (1) the number of contracts
that have been awarded by DOD for culvert denial systems and (2) the extent to which contract oversight was
conducted by DOD.
To conduct this review, we relied on data and documents provided by U.S. Forces-Afghanistan (USFOR-A),
U.S. Central Command’s Joint Theater Support Contracting Command (C-JTSCC) including their subordinate
Regional Contracting Commands (RCCs), Combined Joint Task Force-Paladin, Combined Joint Task Force-1
(CJTF-1) in Regional Command-East (RC-E), Combined Joint Task Force 3 (CJTF-3) in Regional Command-South
(RC-S), and personnel at the Kandahar Provincial Reconstruction Team (KPRT). We also conducted interviews
of personnel from the commands listed above, and we reviewed and analyzed a sample of culvert denial
system contract files in Afghanistan. This review did not include an assessment of culvert denial systems that




1 United States Army - Joint Improvised Explosive Device Defeat Organization, Before the U.S. House of Representatives

Committee on Appropriations, Subcommittee on Defense, 113th Cong. (September 20, 2012) (Statement by Lieutenant
General Michael D. Barbero, Director, Joint Improvised Explosive Device Defeat Organization U.S. Department of Defense).



SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                                  Page 1
were part of road projects funded by the U.S. Army Corps of Engineers or the U.S. Agency for International
Development.


Background
Culverts under roads and embankments have been used by insurgents to conceal IEDs and other bulk
explosive devices. A culvert denial system is typically a grating fabricated from reinforcing bar (rebar) that
covers the opening of a culvert and is embedded in concrete. Although sizes of culverts can vary, there are
specifications for culvert denial systems, including how wide the openings between the rebar can be, as well as
the type of rebar and concrete that must be used. These systems are constructed and installed by a contractor,
constructed and installed by military personnel, or constructed by a contractor and installed by military
personnel.


Photos: Examples of Culvert Denial Systems




Source: C-JTSCC contract files.


The installation of culvert denial systems is often included as a requirement in a road construction contract.
Contracts exclusively for the installation of culvert denial systems and requirements for the installation of such
systems within larger road construction contracts usually have a requirement for multiple culvert denial
systems to be installed. The locations for the installation of these systems are written into the contract in one
of three ways, as
       1. specific Military Grid Reference System (MGRS) coordinates for each location; 2
       2. a latitude and longitude reference for each location; or
       3. a starting location along a route or highway, either in MGRS or latitude and longitude, and an end
          location, with instructions to cover all the culverts between those two points. 3




2 The MGRS is an alphanumeric version of a numerical Universal Transverse Mercator (UTM) or Universal Polar

Stereographic (UPS) grid coordinate.
3   This type of contract is referred to as a point-to-point contract.



SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                              Page 2
The Universe of Contracts and Total Amount of Money Spent on Culvert Denial
Systems Cannot be Determined
We were unable to determine the total number of contracts awarded for the construction and installation of
culvert denial systems due, in large part, to the various ways that these systems are contracted for and
installed in Afghanistan. Requirements for culvert denial systems are generated in a decentralized way by
various military units around Afghanistan based on the need and threat level in their area. Further, once a
requirement for a culvert denial system has been identified, the contract can be awarded and administered
through a number of entities or organizations—from the unit that identified the requirement to the larger
contracting commands. As a result, we found that there is a fragmented understanding of and a lack of
visibility into the universe of contracts for these systems among DOD’s military and civilian contracting officials
in Afghanistan. In addition to the difficulty in identifying which military units or commands may have awarded
culvert denial systems contracts, we cannot be sure that we have exhausted all search terms to identify these
contracts in contract databases due to the various terms used to denote culvert denial systems, such as trash
racks, gratings, and culvert covers. Based on our review of the contracts identified by SIGAR and DOD officials,
DOD personnel have largely awarded contracts in Afghanistan that include culvert denial systems using
Commander’s Emergency Response Program (CERP) and operation and maintenance funds, though
U.S. troops have also installed some of these systems themselves. 4
Since 2009, DOD has awarded contracts worth approximately $32 million for a variety of requirements, some
of which include the installation of culvert denial systems. From our review of these contracts, we identified at
least 2500 specific grid points where culvert denial systems were supposed to be installed, though with the
lack of quality assurance/quality control (QA/QC) documentation in the contract files, it is not clear how many
of those culvert denial systems were actually completed. From contract data that we had access to, the price
of a culvert denial system can vary based on type, size, and location. The price of a culvert denial system was
found to vary from a low of $800 to as much as $6,500.
Most of the contracts for culvert denial systems that we were able to identify were awarded in the eastern and
southern part of the country due to the relatively large concentration of U.S. troops in those two Regional
Commands (RC); the kinetic nature of those regions; and the tactics, techniques, and procedures of the
insurgents operating in those areas.
CERP contracts were particularly difficult to identify, and we could not be certain that we captured all culvert
denial systems that were installed using CERP funds. While some CERP contracts were exclusively for the
construction of culvert denial systems, there were also culvert denial system requirements as part of larger
road repair contracts. In addition, we were told by the CERP manager in Regional Command-North that, in at
least two cases, there are ongoing culvert denial systems projects funded by bulk CERP funds. 5 If a culvert
denial system is paid for with bulk CERP funds, it is particularly difficult to identify in the Combined Information
Data Network Exchange (CIDNE) because CIDNE does not allow searches for the individual projects funded
under bulk CERP. 6




4 The CERP program enables U.S. commanders in Afghanistan to carry out small-scale projects designed to meet urgent

humanitarian relief requirements or urgent reconstruction requirements within their area of operations.
5 CERP guidance allows Commanders to utilize advance bulk CERP funds to expedite the execution of small-scale CERP

projects under $5,000 for an individual project or, in specific cases, up to $10,000 when the senior U.S. commander in the
Regional Command in Afghanistan approves the project.
6 All CERP projects are required to be properly documented and continually monitored and maintained in the Combined

Information Data Network Exchange database to include the uploading of complete project files.



SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                                   Page 3
Contract Files Generally Had Insufficient Documentation to Demonstrate That
Culvert Denial Systems Were Installed
The contract files that we reviewed for the culvert denial systems contracts implemented under CERP and the
C-JTSCC generally did not have sufficient documentation to demonstrate that QA/QC had been performed for
the contracts. We reviewed files for 19 of the 39 completed CERP contracts that had a culvert denial system
requirement and 10 of the 15 C-JTSCC contracts that had requirements for culvert denial systems. A majority
of the contract files that we reviewed had insufficient documentation to determine whether QA/QC had been
performed systematically throughout the course of the project. As a result, we were not able to determine if
steps were taken to perform QA/QC on the contract. Without proper documentation to demonstrate that QA/QC
steps were taken, there is little information in the files to show that culvert denial systems were ever properly
installed or installed at all.
USFOR-A guidance for the CERP program, outlined in the document “Money as a Weapons System-
Afghanistan” (MAAWS-A), requires that the completed project file be uploaded and kept in the CIDNE. 7 Since
December 2009, MAAWS-A has required that blueprints, drawings, maps, and photos be included in the CIDNE
file. In addition, many of the CERP contracts we reviewed require that the contractor submit, as proof of work
completed, either photographs with a grid location or a description of the culvert denial system installed along
with the grid point. However, sufficient documentation that this information was ever received by the
contracting officer’s representative (COR) does not exist in CIDNE for the majority of the CERP projects that we
reviewed. We found either partial or no evidence that this contractual requirement was met for the majority of
the contract files maintained in CIDNE.
Guidance outlined in the Defense Contingency Contracting Handbook states that the COR will periodically
inspect, carefully monitor, and keep the contracting officer informed of contractor performance on the
technical requirements of the contract. The COR is also required to promptly inspect the supplies and services
delivered to determine their acceptability or, in other words, ensure that the government receives the supplies
or services for which it is paying. This includes a requirement that the COR document contractor performance,
review and evaluate progress reports, review invoices, and perform site visits. We found that most of the
15 C-JTSCC contract files did not contain QA/QC documentation, such as pictures with grid points or evidence
of COR site visits. Specifically, for 5 of the contract files, no evidence of QA/QC existed; for 3 of the contract
files, some evidence of QA/QC existed, though not significant; and for 2 contract files, we found that there was
documentation that a significant amount of QA/QC had been performed. 8 We did not review the remaining
5 contract files, which are now at Rock Island Contracting Command (RICC).


Conclusion
There is insufficient evidence to show that culvert denial systems paid for with U.S. government funds were
ever installed or, if they were, that the systems were installed properly. The lack of visibility of where culvert
denial systems were installed throughout Afghanistan and the cost of these systems resulted from (1) the
fragmented nature of how requirements were generated for culvert denial system contracts, (2) how the
contracts were awarded by multiple commands at various organizational levels, and (3) the fact that U.S.
troops also constructed and installed the systems. In addition, the lack of complete contract files
demonstrated significant problems with QA/QC. Given the risk of culverts being used to emplace IEDs as a



7 See “Money as a Weapon System Afghanistan” (MAAWS-A), USFOR-A Pub 1-06, Commander’s Emergency Response

Program (CERP) SOP, updated March 2012.
8 We made a determination about the level of QA/QC performed based on the number of photos in the contract files as well

as other evidence of QA/QC performed such as progress updates, records of site visits, etc.



SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                                 Page 4
tactic to target U.S. forces, SIGAR has serious concerns that the lack of contract oversight resulted in the U.S.
government not getting what it paid for and that the risk to U.S. troops was not adequately mitigated. Finally, it
is important to know where culvert denial systems have been installed and what condition they are in to
prevent any further loss of life from the placement of IEDs in roadside culverts.


Recommendations
In order to ensure that active or future contracts that include a requirement for culvert denial systems have the
proper contract management and oversight, we recommend to the Commanders of USFOR-A and C-JTSCC:
    1.   Ensure that specific requirements are included in all contracts for QA/QC to be performed and that
         this QA/QC documentation be reviewed by the appropriate technical experts in order to ensure the
         quality of the culvert denial systems installed;
    2.   Ensure that contracting officials are performing the required QA/QC for culvert denial systems
         requirements prior to making payments; and
    3.   Ensure actions are taken to identify, to the extent possible, the locations of culvert denial systems
         throughout Afghanistan.


Agency Comments
We provided a draft of this report to U.S. Central Command for review and comment. C-JSTCC and the
International Security Assistance Force Joint Command (IJC) provided comments, which are reproduced in
appendices III and IV, respectively. According to U.S. Central Command, IJC responded to the
recommendations on behalf of USFOR-A because it will be the command authority responsible for directing the
actions needed to implement these recommendations. Both C-JTSCC and IJC concurred with the three
recommendations.
C-JTSCC notes a number of actions it has taken or plans to take to improve the quality of contract oversight.
These actions include the recent hiring of a QA tech director and team of QA specialists who will be responsible
for establishing a program to improve oversight of contract QA requirements. These specialists will be
responsible for providing technical assistance to contracting officers, with an emphasis on high-visibility
contracts such as those for culvert denial systems. In addition, C-JTSCC stated that it issued a recent policy
that addresses the preparation of QA surveillance plans, maintenance of government records, and COR
training and technical assistance. In response to our third recommendation, C-JTSCC requested an additional
30 days in order to assemble and review all records associated with culvert denial contracts that have been
awarded by the RCCs in order to identify locations of culvert denial systems throughout theater. We believe this
is a reasonable amount of time and supports the action C-JTSCC will take to identify the location of culvert
denial systems installed throughout Afghanistan.
IJC emphasizes in its comments that, due to the drawdown of Coalition Forces over the coming months and
years, alternative measures may have to be employed in order to inspect and identify locations of culvert
denial systems. We agree that alternative measures, such as aerial observation, may be needed to provide for
sufficient contract oversight. However, we believe that a lack of resources does not excuse poor oversight, nor
does it relieve DOD contracting officials from their responsibilities to ensure that the terms of the contract are
met. It is simply not acceptable to spend taxpayer money on a contract when the contracting officer has no way
to verify that the contract has been fulfilled.




SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                            Page 5
___________________________________________________________
This product was completed under SIGAR’s Office of Special Projects, the SIGAR response team created to
examine emerging issues in prompt, actionable reports to federal agencies and the Congress. The work was
conducted under the authority of Public Law 110-181, as amended, the Inspector General Act of 1978, and
the Inspector General Reform Act of 2008. Major contributors to this report were Melissa Hermes and John
Schenk. Technical assistance was provided by Jim Amoroso, Kim Corthell, Pete Hughes, and Mable Stanford.
Please contact my Director for Special Projects, Ms. Monica Brym, at Monica.j.brym.civ@mail.mil or
703-545-6003 if you have any questions or concerns regarding this work.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction




SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                    Page 6
APPENDIX I - COMMANDER’S EMERGENCY RESPONSE PROGRAM CONTRACT
DATA

The Commander’s Emergency Response Program (CERP) is the funding source for at least 39 contracts for
culvert denial systems that have been completed. Of those 39 contracts, 19 were completed in Regional
Command-South (RC-S), 17 were completed in Regional Command-East (RC-E), and 3 were completed in
Regional Command-North (RC-N). The total estimated amount of the awards for these contracts is
approximately $7.5 million. 9
We chose a judgmental sample of 19 of the original 39 contracts. We chose at least one project in each
Regional Command where a completed project had been identified. We also tried to choose a sample of
projects that would provide a range in terms of the number of culvert denial systems required within the
contract. We were unable to fully determine or confirm the grid points where culvert denial systems were
installed or even the total number of systems installed through CERP. CERP officials from the U.S. Forces-
Afghanistan’s Civil Affairs office did tell us that it was reasonable to assume that the grid points listed in the
Afghan Development Reports (ADR), which is a required document for a CERP project, are likely the best
source of information on the locations where the U.S. government paid to have a culvert denial system
installed. 10 However, as shown in table 1, there are often many fewer grid points in the ADR than in the original
contract. Given the amount of other data missing about these CERP projects, we believe it is likely that the grid
locations listed in the ADR are not inclusive of all locations where the U.S. government paid for the installation
of a culvert denial system.

For the purposes of this review, we did not focus on projects that had been terminated or were ongoing. It is,
however, worth noting that some CERP projects were terminated due to (1) poor performance by the
contractor, (2) lack of oversight by the military unit, and (3) lack of buy in from the local population. In at least
four cases, the CIDNE report stated that the reason for termination was that operation and maintenance
money needed to be used to complete the project instead of CERP funds. For one terminated CERP project
that was directed to use operation and maintenance money, the CIDNE report stated that CERP could not be
used because the construction of culvert denial systems would indirectly benefit U.S. or coalition troops in
violation of CERP guidance. In addition, of the total projects that were terminated (not just those terminated
because operations and maintenance funds had to be used instead of CERP), multiple projects had some work
completed prior to termination, but we were unable to determine what percentage of work was completed. This
was largely because invoices were generally paid out as progress payments for a percentage of work
completed, but the invoices do not list the specific work that was completed.

In a January 2011 SIGAR audit report we noted that the data in CIDNE is unreliable. 11 Uploading media files,
such as pictures, can be a time consuming or impossible task, especially in the field. Nevertheless, U.S. Army



9 Contracts may include more than just construction of culvert denial systems. These contracts sometimes include road

construction or repair. The estimated award amount is the dollar figure for the entire contract, not just the construction of
the culvert denial systems. Because contractors are paid by percentage of work completed and the invoices are not broken
out by what specific work was actually completed, we could not determine exactly how much was paid for the culvert denial
systems through CERP.
10 An Afghan Development Report (ADR) is required for all CERP projects. It is a report that is generated in CIDNE and

contains all the project data. It is required per the MAAWS-A that the ADR is updated throughout the project’s life cycle as
any significant changes, events, or milestones are completed.
11 SIGAR Audit 11-7“Commander’s Emergency Response Program in Laghman Province Provided Some Benefits, but

Oversight Weaknesses and Sustainment Concerns Led to Questionable Outcomes and Potential Waste.” 27 January 2011.



SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                                       Page 7
Central Command (ARCENT) (Finance) guidance dated February 28, 2010, requires that all financial
documents related to Operation Enduring Freedom shall be inventoried and retained indefinitely. This guidance
applies to CERP files and is retroactive to September 11, 2001. There is further ARCENT draft guidance dated
December 17, 2012, that instructs that paper and electronic financial records be maintained, properly boxed,
and shipped to ARCENT headquarters no earlier than 13 months and no later than 15 months following the
fiscal year in which an appropriation closes for obligation.
Though we did not focus on or review all ongoing culvert denial systems projects that used CERP funds, the
CERP manager for RC-N contacted us after our analysis of the data had been completed, and he provided
additional information about one of the completed projects in his Regional Command that had been funded
through bulk CERP. Quality assurance/quality control (QA/QC) documentation for the project was provided
along with an explanation of the process that was followed. The CERP manager conducted additional oversight
of this project due, at least in part, to this special project. The engineers who were overseeing this project went
on an initial site inspection and identified some issues with the construction of the culvert denial systems that
had been installed. The contractor was required to correct the deficiencies prior to payment, and the engineers
conducted a final site inspection to ensure that the deficiencies had been corrected. Based on a review of the
documentation presented, we believe that QA/QC was performed on this project.
All completed CERP projects that were identified as having a culvert denial systems requirement are listed in
table 1.

Table 1 - CERP Awards by Project Number
                                                                        Original Number of          Number of
                                    Regional      Estimated Award
    Ref #    Project Number                                             Culverts Required in    Culverts Identified
                                   Command            Amounta
                                                                             Contractb               on ADR

1           20090520155936        RC-East              $168,275.00                        50                      1

2           20120723121433        RC-East              $300,000.00                       N/A                   108

3           20090707105431        RC-East            $1,516,010.00                       578                      6

4           2009052014570         RC-East              $168,275.00                        50                      1

5           20090202081610        RC-East              $196,400.00                        47                      1

6           2009113064506         RC-East              $361,000.00                       200                    13

7           20100902114944        RC-East                $88,000.00                      108                      1

8           20110822053152        RC-East                $95,000.00                      N/A                      2

9           20090417161550        RC-East              $140,000.00                        62                      9

10          20090417203401        RC-East              $190,000.00                        39                      9

11          20110705105126        RC-East                $40,000.00                       35                      2

12          20090630065452        RC-East                $86,101.00                        7                      4

13          20090520034455        RC-East                $70,765.20                       42                    14

14          20090520041728        RC-East                 $8,900.00                        6                    12

15          20100110065726        RC-East              $196,560.00                        56                      4

16          20090627120250        RC-East              $186,000.00                        31                      4

17          20090804085201        RC-East              $509,371.47                       578                      5

18          20101023104746        RC-North               $35,190.00                        1                      1



SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                            Page 8
Table 1 - CERP Awards by Project Number
                                                                             Original Number of             Number of
                                      Regional       Estimated Award
 Ref #       Project Number                                                  Culverts Required in       Culverts Identified
                                     Command             Amounta
                                                                                  Contractb                  on ADR

19          20090316051107          RC-North                $30,120.00                             9                        1

20          20101105132015          RC-North               $116,400.00                            27                        1

21          20100723080508          RC-South                $20,249.00                            12                      12

22          20100818071127          RC-South               $190,000.00                            25                        5

23          20100825100656          RC-South               $180,000.00                           N/A                        1

24          20100903102432          RC-South               $180,000.00                           N/A                        1

25          20090203111314          RC-South               $368,018.10                          108                       80

26          20110616084007          RC-South               $190,000.00                            22                        1

27          20100121102502          RC-South               $195,000.00                            25                        2

28          20100217110439          RC-South               $389,338.00                            46                        1

29          20100506134941          RC-South               $137,967.00                             4                        1

30          20110321141624          RC-South                $45,000.00                           N/A                        4

31          20091221093932          RC-South               $192,246.00                            17                        1

32          20100116051950          RC-South               $150,000.00                            20                        1

33          20100120061107          RC-South               $121,198.00                            20                        1

34          20100206094607          RC-South               $154,854.00                            20                        2

35          20100409085619          RC-South               $144,419.00                           N/A                        2

36          20100410082153          RC-South               $127,818.00                            19                        2

37          20100423053031          RC-South               $124,806.00                           N/A                        2

38          20100828053950          RC-South                $35,000.00                             7                        7

39          20101225112229          RC-South                $49,250.00                             5                        2

TOTALS                                                   $7,497,530.77                         2276                      327
Source: SIGAR analysis of data available in the CIDNE database on culvert denial systems contract funded through CERP.
Notes:
a Contracts may include more than just construction of culvert denial systems. These contracts sometimes include road

construction or repair. The estimated award amount is the dollar figure for the entire contract, not just the construction of
the culvert denial systems. Because contractors are paid by percentage of work completed and the invoices are not broken
out by what specific work was actually completed, we could not determine exactly how much was paid for the culvert denial
systems through CERP.
b Thiscolumn indicates the number culverts originally identified in the contract. For projects where the contract only had a
point-to-point location or indicated a stretch of highway, ‘N/A’ is listed because the number of culverts was undetermined in
the original contract.




SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                                      Page 9
APPENDIX II - CENTRAL COMMAND JOINT THEATER SUPPORT CONTRACTING
COMMAND CONTRACT DATA

A total of 20 contracts were identified that were awarded by the Central Command Joint Theater Support
Contracting Command’s (C-JTSCC) subcomponent regional contracting commands (RCC) and that included a
requirement for culvert denial systems. Of those 20 contracts, 5 are under the purview of an ongoing SIGAR
investigation and were not examined for the purposes of this review. Of the remaining 15 contracts, 1 was
awarded by RCC-Shank (geographically within Regional Command-East), 1 was awarded by RCC-Delaram
(geographically within Regional Command-Southwest and now closed), 5 were awarded by RCC-Salerno
(geographically in Regional Command-East), and the remaining 8 were awarded by RCC-Kandahar within
Regional Command-South. At least 4 of the contracts awarded by RCC-Kandahar were blanket purchase
agreements (BPA) with multiple task orders against them for the construction of culvert denial systems. Of the
BPAs that we reviewed, both W91B4L-11-A-0031 (82 task orders) and W91B4L-11-A-0034 (14 task orders)
are no longer active. However, W91B4L-11-A-0033 (currently 117 task orders) and W91B4L-11-A-0037
(currently 198 task orders) are active BPAs. In our review of the 15 contracts for culvert denial systems
awarded by C-JTSCC, we identified requirements for over 2,000 culvert denial systems. Given the limitations of
the available data, we could not verify how many of these culvert denial systems were completed.
Though some contract files have been sent to Rock Island Contracting Command for storage, we were provided
contract file documents for 13 contract numbers. 12 Documents included any DD250s that RCC-Kandahar and
RCC-Salerno could find and any quality assurance/quality control (QA/QC) documentation that they still had on
their hard drives. 13 We assessed what was provided on the compact disks to determine the level of QA/QC
performed but we could not confirm that any of the contract files provided electronically were complete.
We received several compact disks of data from both RCC-Kandahar and RCC-Sharana. Those disks contained
contract files for 10 of the 15 contracts, though not all contract files were complete. Of those contracts files
that we were able to review, we generally found that QA/QC documentation—such as pictures or
documentation of site visits by the contracting officer’s representative—were not available. Further, of the 15
contracts that we reviewed for this project, 5 of those contract files have been sent to the Rock Island
Contracting Center for storage, and the contracts were not available. Additional information about the
contracts we reviewed is in Table 2.

Table 2 - JTSCC Awards by Contract Number
                                                                                                Culverts Required In
Ref #           Contract Number                Awarding Office           Award Amounta
                                                                                                     Contractb

1         W90YVD-12-C-0022                 RCC-Shank                                 $20,293                         1

2         W919QC-10-P-0105                 RCC-Delaram                               $61,610                        18

3         W91B4L-09-C-RP03                 RCC-Kandahar                            $2,798,000            Point-to-Point

4         W91B4L-09-C-RP04                 RCC-Kandahar                             $997,650                      450



12 We were provided contract files for the following contract numbers: W91B4L-11-A-0031, W91B4L-11-A-0033, W91B4L-

11-A-0034, W91B4L-11-A-0037, W91B4L-11-C-RP00, W91B4L-11-C-RP001, W91B4L-11-C-RP04, and W91B4L-11-C-
RP06, W91B4P-11-C-0029, W91B4P-11-C-0046, W91B4P-11-C-0078, W91B4P-11-C-0236, and W91B4P-12-C-0004.
13 A DD250 is DOD’s Material Inspection and Receiving Report, which documents, among other things, DOD

acknowledgement of receipt of material.



SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                              Page 10
Table 2 - JTSCC Awards by Contract Number
                                                                                                    Culverts Required In
 Ref #            Contract Number                 Awarding Office            Award Amounta
                                                                                                         Contractb

5             W91B4L-10-D-0020               RCC-Kandahar                          $10,000,000                  Not Defined

6             W91B4L-10-D-0021               RCC-Kandahar                            $1,616,019                 Not Defined

7             W91B4L-11-A-0031               RCC-Kandahar                            $2,277,955                        329

8             W91B4L-11-A-0033               RCC-Kandahar                            $2,052,475                        419c

9             W91B4L-11-A-0034               RCC-Kandahar                              $416,975                          65

10            W91B4L-11-A-0037               RCC-Kandahar                            $3,282,153                        709d

11            W91B4P-11-C-0029               RCC-Salerno                               $312,063                          79

12            W91B4P-11-C-0046               RCC-Salerno                               $335,060                        120

13            W91B4P-11-C-0078               RCC-Salerno                                $66,814                          21

14            W91B4P-11-C-0236               RCC-Salerno                               $149,500               Point-to-Point

15            W91B4P-12-C-0004               RCC-Salerno                                $49,065                           1

Totals                                                                             $24,435,632                        2212
Source: Add

a These
      estimates are based on the requirements in the award documents. Due to the lack of information on invoice and
payment data, we cannot determine how much of an award was expended.
b Theseestimates are based on requirements in the award documents. Because the contract files did not contain invoice
information, we could not be certain whether all of the requirements were met.
c In addition to the 395 specific Military Grid Reference System (MGRS) points, there was 1 requirement that was a point-to-

point, 1 requirement that contained 24 requirements but no MGRS points, and 9 requirements we believe had a culvert
denial system requirement, but we could not confirm that there was actually a culvert denial system requirement without
the statement of work.
d The culvert denial system requirements are a minimum. Because there are point-to-point requirements and because this

is an open BPA, we expect the actual number of culvert denial system requirements to be higher.




SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                                   Page 11
APPENDIX III - COMMENTS FROM CENTRAL COMMAND JOINT THEATER
SUPPORT CONTRACTING COMMAND



                                                   HEADQUARTERS
                                     CENTCOM JOINT THEATER SUPPORT CONTRACTING COMMAND
                                                  CAMP PHOENIX, AFGHANISTAN
                                                         APO AE 09320




                CJTSCC/DCO                                                                   10July2013


                MEMORANDUM FOR SIGAR's Office of Special Projects

                SUBJECT: Response to SIGAR SP-13-X - Draft Report- "Improvised Explosive
                Devices: Better Contract Management Needed to Track and Evaluate the Effectiveness
                of Culvert Denial Systems"                          •

                1. C-JTSCC has reviewed the subject report and concurs with recommendations as
                listed below:

                    a. Recommendation 1: "Ensure that specific requirements are included in all
                contracts for QA/QC to be performed and that this QA/QC documentation be reviewed
                by the appropriate technical experts in order to ensure the quality of the culvert denial
                systems installed."

                Response: C-JTSCC hired a QA Tech Director and team of QA Specialists led by a QA
                Technical Lead to establish a QA Program that will improve C-JTSCC's surveillance of
                contract QA requirements . The QA Specialists participate early in the Joint Acquisition
                Review Board (JAR B)/pre-award process to ensure adequate QA requirements are
                included in all contracts. QA Specialists are responsible for providing technical
                assistance to contracting officers to ensure contractors comply with QA requirements in
                their contracts with emphasis on high-visibility contracts like culvert denial systems. QA
                Specialists provide oversight and assistance to Construction Control Representatives
                (ConReps) and Contracting Officer Representatives (CORs) to ensure the C-JTSCC QA
                Program complies with USG, DoD, and Army QA regulations, policies, and procedures
                including the FAR, DFARS, and AFARS, as well as audit agency recommendations
                including GAO. DoDIG, SIGAR, COWC, and Gansler as applicable.

                Additionally, C-JTSCC hired a COR Manager in July 2012 to augment the subject matter
                experts (SMEs) workforce and provide a single point of contact. This COR Manager
                functions as a focal point to assure that CORs, contracting officers and other SMEs
                focus on contract monitoring, contractor oversight, performance monitoring,
                documentation, contract reviews , and contract deliverables in accordance with contract
                requirements.

                   b. Recommendation 2: "Ensure that contracting officials are performing the required
                QA/QC for culvert denial systems requirements prior to making payments."

                Response: C-JTSCC tasked the COR Manager with responsibilities to assure the COR
                workforce is certified in training courses based on contract workload requirements. is
                adhering to COR policies/procedures. and has access to specialized SMEs on
                construction projects to perform post-award quality assurance duties and functions in
                support of contracting officers.




SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                             Page 12
                CJTSCC/DCO
                SUBJECT: Response to SIGAR SP-13-X - Draft Report - "Improvised Explosive
                Devices: Better Contract Management Needed to Track and Evaluate the Effectiveness
                of Culvert Denial Systems·


                The QA Technical Director developed a QA ·way Ahead" Plan to improve surveillance of
                QA requirements in contracts and collaboratively designed and implemented a
                continuous QA workload measurement process for ConReps. The QA Tech Lead will
                implement the QA "Way Ahead" Plan and evolve C-JTSCC's QA Program in support of
                contracting officers.

                In addition, C-JTSCC issued recent policy which, in part, addresses topics such as
                preparation of QA surveillance plans (QASP), maintenance of government records [QA
                Standard Operating Procedure (SOP)], COR training and technical assistance (COR
                SOP). Decision to waive a QASP shall be made only by the Regional Contracting
                Center (RCC)/Regional Contracting Officer (RCO) Chiefs per Commanding General
                direction, based on sound judgment and documented proof the contractor is in
                compliance with all contract requirements (e.g., Statement of Work (SOW). construction
                drawings, and/or blueprint specifications).

                   c. Recommendation 3: "Ensure actions are taken to identify, to the extent possible,
                the locations of culvert denial systems throughout Afghanistan."

                Response: The C-JTSCC Senior Contracting Official-Afghanistan (SCO-A) has tasked
                all RCC/RCO Chiefs to review and identify all culvert denial systems contract actions,
                locations and associated records (e.g., contracts, COR monthly reports, and trip reports)
                they have awarded.

                2. Action for Recommendation 3 requires additional time to assemble and review all
                associated records. We hereby request an extension of 30 days to complete this action.

                3. Questions regarding this memo can be addressed to C-JTSCC/FUOPS at


                                                          CAPT Linda ~..:""­

                                                          r            -·
                                                          Schlesinge ::._:::.::...
                                                                     .... ___ ,.,.,_


                                                         Linda Schlesinger
                                                                              .. ..
                                                                               ~~.




                                                         CAPT, USN
                                                         Deputy Commander




                                                              2




SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                            Page 13
APPENDIX IV - COMMENTS FROM THE INTERNATIONAL SECURITY ASSISTANCE
FORCE JOINT COMMAND



                                      INTERNATIONAL SECURITY ASSISTANCE FORCE (ISAF)
                                                    Joint Command (IJC)
                                                       Kabul, Afghanistan
                                                        APO, AE 09320




             ISAF -IJC- IG                                                                             17 July 2013


             MEMORANDUM FOR USFOR-A

             SUBJECT: IJC Response to Final Report - SIGAR SP-3.


             1. IJC has reviewed the draft report from SIGAR SP-3 "Improvised Explosive Devices: Better
             Contract Management Needed to Track and Evaluate the Effectiveness of Culvert Denial
             Systems (CDS)". IJC concurs with all three of the report's recommendations, but provides the
             following comments for context and clarification:

                      a. Recommendation 1: Concur - Due to troop draw down, it is unlikely that Caolition
             Forces (CF) will have the resources to inspect, or re-inspect, every CDS from prior years'
             contracts, especially in contested areas. CF commanders may, if resources permit, remotely
             verify installation ct CDS using imagery from aerial platforms.

                      b. Recommendation 2: Concur - Though CERP is a viable tool to fund installation of CDS
             (transportation project category), GIRoA Ministry of Public Works should bear the costs of
             installing CDS on civilian transportation routes. Additionally, CF commanders must continue to
             ensure the routes used to support CF operations are secure and culverts are properly cleared
             and/or pr~ected by CDS. QAIQC inspections should be documented with digital photos bearing
             ephemeral MGRS data and date stamp. However, it must be recognized that a visual inspection
             does not guarantee that a CDS is properly affixed or that it couldn't be easily removed.

                   c. Recommendation 3: Concur- Use of aerial platforms to identify locations of CDS should
             be considered, if available. GIRoA and ANSF should be leveraged to assist in this effort as CF
             draw down.

             2. Point of contact for this response is COL Ron McNamara at DSN                      .

                                                                      Ronald
                                                                      McNamara
                                                                                  - ..-·-·
                                                                                 ...  ..
                                                                                 .._..-
                                                                                 -··-...,..,.-·
                                                                                          -·~·-·

                                                                                  :.~···-·-
                                                                     RONALDW. McNAMARA
                                                                     COL, USA
                                                                     Inspector General




SIGAR SP-13-8 Improvised Explosive Devices: Contracts for Culvert Denial Systems                                      Page 14
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




              Public Affairs   Public Affairs Officer
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
